APPLICATION AND
SOLICITATION
DISCLOSURE

PO Box 7850
Ann Arbor, MI 48107
(734) 662-8200 • (800) 968-UMCU
UMCU.ORG

VISA PLATINUM OPTIMUM/VISA PLATINUM CASH REWARDS

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases Visa Platinum Optimum

8.99%

Visa Platinum Cash Rewards
APR for Balance Transfers

12.99%

Visa Platinum Optimum
8.99%
Visa Platinum Cash Rewards
12.99%

APR for Cash Advances

Visa Platinum Optimum
8.99%
Visa Platinum Cash Rewards
12.99%

Penalty APR and When it Applies

Visa Platinum Optimum
None
Visa Platinum Cash Rewards
None

How to Avoid Paying Interest on
Purchases

Your due date is at least 27 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Foreign Transaction Fee
- Non-UMCU/Non-CO-OP
- Network ATM Transaction Fee
- Overdraft Protection Transfer Fee

None
None
None
None
$5.00
None
None
1.00% of each transaction in U.S. dollars
$2.00
$2.00
SEE NEXT PAGE for more important information about your account.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 1 of 3

02107749-MXC10-C-1-043019 (MXC101-E)

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Return Payment Fee

Up to $35.00
None
None

How We Will Calculate Your Balance:
We use a method called “average daily balance (including new purchases).”
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 13, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum Optimum and Visa Platinum Cash Rewards are secured credit cards.
Credit extended under this credit card account is secured by various personal property and money including, but
not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral
for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Cash Back Bonus for Visa Platinum Cash Rewards:
All purchases made will earn a cashback bonus. Cash advances, balance transfers, and transfers for overdraft do not earn the
cashback bonus. The Visa Platinum Cash Rewards cashback bonus rate is 1.10%. Credits for returned merchandise and credits
for disputed transactions will be deducted from the bonus total. The bonus will be paid at least annually and will be deposited
to a University of Michigan Credit Union share savings account. Any earned and unpaid cashback bonus will be forfeited upon
closure of the card. The Credit Union reserves the right to change or terminate the cashback bonus at any time.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment. In the event you fail to make a payment on time in any of the six billing cycles following the initial violation, you
will be charged $35.00 or the amount of the required minimum payment, whichever is less.
Additional Card Fee:
$5.00.
Non-UMCU/Non-CO-OP Network ATM Transaction Fee:
$2.00.
Overdraft Protection Transfer Fee:
$2.00.
Card Recovery Fee:
None.
Card Replacement Fee:
$5.00.
Document Copy Fee:
$10.00.
Emergency Card Replacement Fee:
None.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 2 of 3

02107749-MXC10-C-1-043019 (MXC101-E)

Pay-by-Phone Fee:
$10.00.
PIN Replacement Fee:
None.
Rush Fee:
None.
Statement Copy Fee:
$5.00 per document.
Unreturned Card Fee:
None.
Account Research Fee:
$30.00 per hour.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 3 of 3

02107749-MXC10-C-1-043019 (MXC101-E)

